XAVIER BECERRA
Attorney General

State of California
DEPARTMENT OF JUSTICE
1515 CLAY STREET, 20TH FLOOR
P.O. BOX 70550
OAKLAND, CA 95612-0550

Public: (510) 879-1300
Telephone: (510) 879-0756
Facsimile: (510) 622-2270
E-Mail: Joshua.Klein@doj.ca.gov

November 19, 2020
By Electronic Filing
Hon. Scott S. Harris
Clerk of the Supreme Court
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
RE:

Barr, et al. v. City and County of San Francisco, et al., No. 20-666
Request for extension of time

Dear Mr. Harris:
This office represents respondent the State of California in this case. The court of
appeals entered its judgment on July 13, 2020. The government filed its petition for a writ of
certiorari 123 days later, on November 13. Responses are currently due on December 14.
Pursuant to Rule 30.4, we respectfully request that the time in which to respond to the
petition be extended by 30 days, to January 13, 2021. The extension is requested to allow
California to complete a response that will best assist this Court, and in light of the heavy press
of other cases assigned to the attorneys handling this matter. Among other responsibilities,
counsel of record in this matter is also responsible for preparing the State’s response to the
petition for certiorari in Trump v. Sierra Club, No. 20-685 (currently due Dec. 17), and the
State’s brief on the merits in Trump v. Sierra Club, No. 20-138 (currently due Jan. 4, 2021).1 In
addition, the Solicitor General of California, who will be involved in drafting and reviewing the
response in this case, is also involved in the drafting of California’s briefs mentioned above in
Case Nos. 20-685 and 20-138, as well as the drafting of merits briefs in Lange v. California, No.
20-18 (currently due Dec. 4, 2020), and Cedar Point Nursery v. Hassid, No. 20-107 (currently
due Jan. 27, 2021). No previous extensions of time have been requested in this matter.

1

Petitioners in Case No. 20-138 have submitted a joint request for an extension of time that, if
granted, would make California’s brief in that case due on January 12, 2021.

November 19, 2020
Page 2
Thank you for your consideration of this request.
Sincerely,
s/ Joshua A. Klein
JOSHUA A. KLEIN
Deputy Solicitor General
For

cc:

XAVIER BECERRA
Attorney General

Acting Solicitor General Jeffrey B. Wall
Counsel for Petitioners
Aileen McGrath, Co-Chief of Appellate Litigation, San Francisco City Attorney’s Office
Counsel for Respondent the City and County of San Francisco

